APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
IN RE: SARADA MOHAPATRA,
Appellant
2020-1935
Appeal from the United States Patent
and Trademark Office, Patent Trial and
Appeal Board in No. 14/270,644.
Decided: February 5, 2021
SARADA MOHAPATRA, Naperville, IL, pro se.
SARAH E. CRAVEN, Office of the Solicitor, United
StatesPatent and Trademark Office, Alexandria, VA,
for appellee Andrew Hirshfeld. Also represented by
KAKOLI CAPRIHAN,THOMAS W. KRAUSE, AMY
J. NELSON, FARHEENA YASMEEN RASHEED.
Before DYK, BRYSON, and O’MALLEY, Circuit
Judges.
BRYSON, Circuit Judge.
Appellant Sarada Mohapatra seeks to overturn a
decision of the Patent Trial and Appeal Board holding
that hispatent application is directed to unpatentable
subject matter. We affirm.

la

I
Mr. Mohapatra’s patent application is directed to
a method for countering credit card fraud by enabling
a card holder to change the card’s security code at any
time by using a card account management facility
accessible over the Internet. The claimed method
provides that the new security code will be different
from the code printed on the card and different from
the last recorded code. Claim 18 of the application,
which is representative,1 recites the following:
18. A method for countering credit card
fraud arising from compromised credit card
information by utilizing cardholder changeable
card security code (CSC; also known as card
verification value CW2 or card verification
data CVD or card identification code CID or
card verification code CVC2) comprising:
a)

A card issuer enabling change of card

security code printed on the card, by

1

The Patent Trial and Appeal Board treated claim 18 as

representative. Mr. Mohapatra has not challenged that
characterization or made any separate arguments directed to
any of the four dependent claims.
2a

allowing cardholder to choose a new
security code value as often as cardholder
wishes,
facilitating recordation of chosen card
security code by the cardholder by providing
an

internet

connected

card

account

management facility,
using most recently recorded card security
code

to

verify

subsequent

transaction

authorization re- quests without requiring any
change in existing credit cards, terminals,
equipment,

computer

software

and

communication protocols used in transaction
authorization, and
denying transactions when card security
code provided during authorization does not
match cardsecurity code on record;
a)

Cardholder changing card security

code any time s/he deems it necessary to
mitigate risk from possible card security code
compromise, by

3a

selecting a new security code value to be
used as personal secret separate from the card
without requiring assistance from any software
program running on any device,
ensuring that selected new security code
valueis different from the printed code on first
change and is different from last recorded code
on subsequent changes,
recording the new card security code value
using issuer provided internet connected card
ac-count management facility, and
remembering and providing the new card
security

code

when

prompted

during

subsequent creditcard authorizations.
The examiner rejected the claims as being
directed to non-statutory subject matter under 35
U.S.C. § 101, as in-definite under 35 U.S.C. § 112(b),
and for obviousness un- der 35 U.S.C. § 103.
On appeal, the Patent Trial and Appeal Board
reversedthe obviousness rejection. The Board noted
that the prior art references on which the examiner
relied appeared to berelated to “electronic credit cards

4a

or dynamic security codes,” not to changing the
security code printed on a credit card' Ex Parte
Mohapatra, No. 2018-008151, 2020 WL 859350, at *5
(P.T.A.B. Feb. 18, 2020).
The
however.

Board
The

sustained
Board

the

upheld

other

rejections,

the

examiner’s

indefiniteness rejection because Mr. Mohapatra had
not contested that rejection on appeal. With respect to
the section 101 rejection, the Board agreed with the
examiner that the claimed “method for countering
credit card fraud” by allowing customers to change the
security codes on their credit cards was “directed to
the abstract idea of a method of organizing human
activity in the

form of fundamental economic

practices.” Id. at *3. The Board noted that beyond the
abstract idea of customer-originated changes in the
security codes, the claims recited that “an internet
connected card account management facility,” such as
a financial institution’s computer system, would be
used to record and store the changed codes. Id. at *4.
That limitation, the Board found, did not convert the
abstract idea into a patentable invention, such as by
reciting an improvement in computer functionality or
other technological innovation. At most, the Board
5a

explained, that limitation “generally links the use of
the abstract idea to a particular technological
environment involving a financial institution.” Id.
The Board also agreed with the examiner’s finding
that none of the additional elements of the applicant’s
claims, such as Internet connectivity, the web
application,

or

the

mobile

application,

adds

significantly more to the abstract idea or transforms
that abstract idea into patent-eligible subject matter.
Instead, the Board found, steps such as providing an
Internet-connected card account management facility
or otherwise storing the data do “no more than
implement the abstract idea on a computer.” Id.
II
On appeal, the Director of the Patent and
Trademark Office does not defend the Board’s ruling
on the section 112(b) rejection, but asks us to uphold
the Board’s decision based on the section 101
rejection. As to the section 101 issue, we agree with
the Board and the examiner that Mr. Mohapatra’s
claims are directed to an abstract idea and that the
claims do not contain any additional elements
sufficient to render them patent eligible.

6a

Mr. Mohapatra first argues that the Patent and

to the samesubject matter” in the past 20 years and
that it therefore should not have rejected his
application. In response, the Director correctly points
out that the issuance of other pa-tents in the same
field of technology is not a ground for challenging the
rejection

of

a

subsequent

application,

Each

application is examined on its own merits for
compliance with pertinent statutory requirements.
See In re McDaniel, 293 F.3d 1379, 1387 (Fed. Cir.
2002) (“It is well settledthat the prosecution of one
patent application does not affect the prosecution of
an unrelated application.”); In re Gyurik, 596 F.2d
1012, 1018-19 n.15 (CCPA 1979) (“Each case is
determined on its own merits. In reviewing specific
rejections of specific claims, this court does not
consider al- lowed claims in other applications or
patents.”); In re Wertheim, 541 F.2d 257,264 (CCPA
1976) (“ [I]t is immaterial in ex parte prosecution
whether the same or similar claims have been allowed
to others.”).
Mr. Mohapatra’s second argument is that his
claims are not abstract within the meaning of section
7a

101 but are “integrated into a practical application.”
Specifically, he contends that the “[potential for real
world benefits” is indicative that the claims are not
abstract.
Section 101 provides that “[wjhoever invents or
discovers any new and useful process, machine,
manufacture, orcomposition of matter, or any new and
useful improvement thereof, may obtain a patent
therefor, subject to the conditions and requirements of
this title.” 35 U.S.C. § 101. But section 101 “contains
an important implicit exception: Laws of nature,
natural phenomena, and abstract ideas are not
patentable.” Alice Corp. v. CLS Bank Inti, 573 U.S.
208, 216 (2014). A claim is deemed patent ineligible
under section 101 if it fails both parts of the two-step
test set forthin Alice: that is, the claim is not eligible
for patenting if (l)the claim is directed to a patentineligible concept, i.e., a law of nature, natural
phenomenon, or abstract idea, and (2) the elements of
the claim do not add enough to trans- form the claim
into a patent-eligible application. SAP America, Inc. v.
InvestPic, LLC, 898 F.3d 1161, 1166-67 (Fed. Cir.
2018).

8a

Mr. Mohapatra contends that his claims are not
directed to abstract ideas, because the claims are
narrowly directed to a specific purpose and because
they are capable of providing well-defined benefits.
Neither of those contentions is sufficient to confer
patent eligibility on an otherwise abstract idea,
however.
A claim does not cease to be abstract for section
101 purposes simply because the claim confines the
abstract

idea

to

a

particular

technological

environment in order to effectuate a real-world
benefit. See Alice, 573 U.S. at 222;BSG Tech LLC v.
BuySeasons, Inc., 899 F.3d 1281, 1287 (Fed. Cir.
2018); buySAFE, Inc. v. Google, Inc., 765 F.3d 1350,
1353 (Fed. Cir. 2014). The abstract idea underlying
Mr. Mohapatra’s claims is for an individual to alter
the identification code associated with a financial
instrument,such as a credit card, to protect against
fraud. The fact that the claims are directed to a
specific subset of that abstract idea—in this case,
enabling a credit card user to change the security code
on the card by using a web application—does not
render the idea any less abstract.
9a

Moreover, the fact that an abstract idea may have
beneficial uses does not mean that claims embodying
the abstract idea are rendered patent eligible. The
benefits thatflow from performing an abstract idea do
not render the abstract idea patentable subject matter
if the benefits “flowfrom performing an abstract idea
in conjunction with a well-known database structure.”
BSG Tech, 899 F.3d at 1287-88. The

idea

of

changeable personal-identification numbers may be
beneficial. But it is also abstract and therefore not
patentable without more.
In assessing claims such as claim 18 for patent
eligibility under section 101, this court has frequently
looked to whether the claims are sufficiently concrete
or specific to be directed to a patent-eligible process
rather than a patent-ineligible result. For example, in
SAP America, the court asked whether the claim had
“the specificity required to transform [it] from one
claiming only a result to one claiming a way of
achieving it.” 898 F.3d at 1167. To answer that
question, we have stated that courts should “look to
whether the claims in the patent focus on a specific
means or method, or are instead directed to a result or
effect that itself is the abstract idea and merely
10a

invokes generic processes and machinery.” Two-Way
Media Ltd. v. Comcast Cable Commons, LLC, 874
F.3d 1329, 1337 (Fed. Cir. 2017); McRO, Inc. u.
Bandai Namco Games Am. Inc., 837 F.3d 1299, 1314
(Fed. Cir. 2016) (“We therefore look to whether the
claims in these patents focus on a specific means or
method that improves the relevant technology or are
instead directed to a result or effect that itself is the
abstract idea and merely invoke generic processes and
machinery.”). Put differently, the relevant inquiry is
“whether the claims are directed to ‘a specific means
or method’ for improving technology or whether they
are simply directed to an abstract end-result.”
RecogniCorp, LLC v. Nintendo Co., 855 F.3d 1322,
1326 (Fed. Cir. 2017) (quoting McRO, 837 F.3d at
1314).
In such cases, claims that recite abstract ideas in
purely functional form have regularly been held
ineligible for patenting. In Affinity Labs of Texas, LLC
v. DirecTV, LLC, 838 F.3d 1253 (Fed. Cir. 2016), for
example, the claim in dispute was directed to a
software application that would enable a wireless
cellular telephone device outside the range of a
regional broadcaster to receive content from the
11a

broadcaster by way of a streaming signal. Id. at 1258.
There was nothing in the claim, however, that
described how to perform the claimed function. Id. at
1260-61. For that reason, we held the claim patent
ineligible.
Similarly, in Interval Licensing LLC v. AOL, Inc.,
896 F.3d 1335 (Fed. Cir. 2018), the claim at issue was
directed to an “attention manager” in a computer
readable medium, and we held that claim to be patent
ineligible. Id. at 1344, 1348. That was so, we
explained, because the claim recited a “broad, resultoriented” structure, and because “[i]nstead of claiming
a solution for producing [a] result, the claim in effect
encompasses all solutions.” Id. at 1345.
Other cases from this court have employed the
same approach while holding claims ineligible under
section 101. See, e.g., Two-Way Media, 874 F.3d at
1337 (“The claim [be- fore the court] requires the
functional

results

of

‘converting,’

‘routing,’

‘controlling,’ ‘monitoring,’ and ‘accumulating records,’
but does not sufficiently describe how to achieve these
results in a non-abstract way.”); Intellectual Ventures
I LLC v. Capital One Fin. Corp., 850 F.3d 1332, 1342

12a

(Fed. Cir. 2017) (“IV argues that the claims set forth a
unique solution to a
documents....

But the claims do not recite

particular features to yield these advantages....
Indeed, the claim language here provides only a
result-oriented solution, with insufficient detail for
how a computer accomplishes it. Our law demands
more.”); Apple, Inc. v. Ameranth, Inc., 842 F.3d 1229,
1241 (Fed. Cir. 2016) (“The patents claim systems
including menus with particular features. They do not
claim a particular way of programming or designing
the software to create menus that have these features,
but instead merely claim the resulting systems.”).
Mr. Mohapatra’s final argument with regard to
the section 101 issue is that his claims embody an
inventive concept that renders them patentable under
step two of the Alice test. He identifies the inventive
concepts of his invention as making security code
numbers changeable, providing for “card account
management on web/mobile devices” to update the
changes, and using those features to prevent fraud. As
the Board concluded,

however,

those

asserted

inventive concepts are in fact just the benefits or goals
that Mr. Mohapatra contends will flow from the
13a

claimed abstract idea. The claims do not disclose an
inventive way by which those goals are to be achieved;
instead, they merely announce the goals themselves.
That does not constitute an “inventive concept” for
purposes of step two of Alice.
Claim 18 recites enabling a cardholder to change
the card’s security code and to choose a new security
code, but it does not recite any specific method for
doing so. The claim recites using the new security code
to validate trans- actions without altering the card or
any of the supporting equipment, but it does not
specify how that is to be done. And it recites recording
and using the new security code by the “internet
connected card account management facility,” but it
does not provide any specificity as to what that facility
is or how that function will be performed.
The functions of recording, storing, and verifying
both the card security code and changes to that code
thus amount to no more than the implementation of
an abstract idea on a computer operating in a
conventional manner. That is not enough to convert
an abstract idea into patent- eligible subject matter.
See Alice, 573 U.S. at 223-25 (computer functions that

14a

are well-understood, routine, and conventional do “no
more than require a generic computer to perform
generic computer functions” and do not constitute an
“inventive concept”).
Claim 18 of Mr. Mohapatra’s application, like the
claims in the cases discussed above, simply recites an
abstract

idea

without

any

accompanying

implementation mechanism that might qualify as an
inventive concept within the meaning of step two of
Alice. Nor is there anything else recited in claim 18
that is sufficiently novel to render the invention
eligible at step two. We therefore uphold the Board’s
decision

that

the

claims

of Mr.

Mohapatra’s

application are directed to patent-ineligible subject
matter.

AFFIRMED

15a

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
IN RE: SARADA MOHAPATRA,
Appellant
2020-1935
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. 14/270,644.
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
Before PROST, Chief Judge, NEWMAN,
LOURIE, BRYSON*, DYK, MOORE, O’MALLEY,
REYNA, WALLACH, TARANTO, CHEN, HUGHES,
and STOLL, Circuit Judges.
PER CURIAM.
ORDER
Sarada Mohapatra filed a combined petition for
panel rehearing and rehearing en banc. The petition
was referred to the panel that heard the appeal, and

* Circuit Judge Bryson participated only in the
decision on the petition for panel rehearing.
16a

thereafter the petition for rehearing en banc was
referred to the circuit judges who are in regular
active service.

Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for en banc rehearing is denied.
The mandate of the court will issue on April 29,
2021.

FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
April 22. 2021
Date

17a

APPENDIX C
UNITED STATES PATENT AND TRADEMARK
OFFICE

BEFORE THE PATENT TRIAL AND APPEAL
BOARD
Ex parte SARADA MOHAPATRA
Appeal 2018-008151
Application 14/270,644
Technology Center 3600
Before EDWARD A. BROWN, MICHAEL L.
HOELTER, and BRENT M. DOUGAL,
Administrative Patent Judges.
DOUGAL, Administrative Patent Judge.
DECISION ON APPEAL
STATEMENT OF THE CASE
Appellant1 appeals under 35 U.S.C. § 134 from a
final rejection of claims 18-22. We have jurisdiction
under 35 U.S.C. § 6(b).
We affirm.
1 We use the word Appellant to refer to “applicant” as defined
in 37 C.F.R. § 1.42(a). Appellant identifies the real party in
interest as Sarada Mohapatra. Appeal Br. 2.

18a

claimed Subject matter
The claims are directed to a cardholder changeable
card security code. Independent claim 18, below, is
illustrative of the claimed subject matter:
18. A method for countering credit card fraud
arising

from

compromised

credit

card

information by utilizing cardholder changeable
card security code (CSC; also known as card
verification value CW2 or card verification
data CVD or card identification code CID or
card verification code CVC2) comprising:
a) A card issuer enabling change of card
security code printed on the card, by
allowing cardholder to choose a new
security code value as often as cardholder
wishes,
facilitating recordation of chosen card
security

code

by

the

cardholder

by

providing an internet connected card
account management facility,
using most recently recorded card security

19a

code to verify subsequent transaction
authorization requests without requiring
any change in existing credit cards,
terminals, equipment, computer software
and communication protocols used in
transaction authorization, and
denying transactions when card security
code provided during authorization does
not match card security code on record;
b) Cardholder changing card security code any
time s/he deems it necessary to mitigate risk from
possible card security code compromise, by
selecting a new security code value to be
used as personal secret separate from the
card without requiring assistance from
any software program running on any
device,
ensuring that selected new security code
value is different from the printed code on
first change and is different from last
recorded code on subsequent changes,
recording the new card security code value

20a

using issuer provided internet connected
card account management facility, and
remembering and providing the new card
security code when prompted during
subsequent credit card authorizations.
REJECTIONS
Claim 18 is rejected under 35 U.S.C. § 112(b) as
being indefinite.
Claims 18-22 are rejected under 35 U.S.C. § 101 as
being directed to ineligible subject matter.
Claims 18-22 are rejected under 35 U.S.C. § 103 as
being unpatentable over Adams (US 2011/0178903
Al, pub. July 21, 2011).
OPINION
35 U.S.C. § 112 - Indefinite
Claim 18 is rejected under 35 U.S.C. § 112(b) as
being indefinite. Final Act. 4—5. Appellant does not
address this rejection. See generally, Appeal Br.
Thus, we summarily affirm the 35 U.S.C. § 112(b)
rejection of claim 18.
35 U.S.C. § 101 - Patent Eligibility

21a

An invention is patent-eligible if it claims a “new and
useful process, machine, manufacture, or
composition of matter.” 35 U.S.C. § 101.
However, the Supreme Court determined that there
are certain judicial exceptions to § 101, namely: (1)
laws of nature, (2) natural phenomena, and (3)
abstract ideas. See Mayo Collaborative Sue. v.
Prometheus Labs, Inc., 566 U.S. 66, 70—71 (2012).
The Supreme Court has set forth “a framework for
distinguishing patents that claim laws of nature,
natural phenomena, and abstract ideas from those
that claim patent-eligible

applications of those

concepts.” Alice Corp. Pty. Ltd. v. CLS Bank Int’l, 573
U.S. 208,217 (2014) (citing Mayo, 566 U.S. at 72-73).
According to the Supreme Court, we first determine
whether the claims at issue are directed to one of those
concepts. Id. If so, we secondly “consider the elements
of each claim both individually and ‘as an ordered
combination’ to determine whether the additional
elements ‘transform the nature of the claim’ into a
patent-eligible application.” Id. (quoting Mayo, 566
U.S. at 79, 78).
The

PTO

published

revised

22a

guidance

on

the

i

application of § 101. USPTO, 2019 Revised Patent
-5-0-

'ill

(January

7,

2019)

(“Revised

Guidance”).

When

conducting step one of the Alice framework under this
guidance, we first look to whether the claim recites:
Prong 1 any judicial exceptions, including certain
groupings

of abstract ideas

(i.e.,

mathematical

concepts, certain methods of organizing human
activity such as a fundamental economic practice, or
mental processes); and
Prong 2 additional elements that integrate the
judicial exception into a practical application.
See Revised Guidance, 84 Fed. Reg. at 54—55. Only if
a claim (1) recites a judicial exception and (2) does not
integrate that exception into a practical application,
do we then look to whether the claim:
(3)

adds a specific limitation beyond the judicial

exception that is not “well-understood, routine,
conventional” in the field; or
(4)

simply

appends

well-understood,

routine,

conventional activities previously known to the
industry, specified at a high level of generality, to the

23a

judicial exception.
See Revised Guidance, 84 Fed. Reg. at 51.
§101 Analysis
Applying the Revised Guidance to the facts on this
record, we find that Appellant’s claims are directed to
patent-ineligible subject matter without significantly
more.
Judicial Exception: Step One of the Mayo/Alice
Framework; Step 2A, Prong 1 of the 2019 Revised
Guidance
The Revised Guidance instructs us first to
determine whether any judicial exception to patent
eligibility is recited in the claim. The Revised
Guidance

identifies

three

judicially-excepted

groupings identified by the courts as abstract ideas:
(1) mathematical concepts, (2) certain methods of
organizing human activity such as fundamental
economic practices, and (3) mental processes.
Under Prong 1, we determine that the claimed
“method for countering credit card fraud” is directed
to the abstract idea of a method of organizing human
activity in the form of fundamental economic

24a

practices. See Final Act. 3, 6 (Finding the claims are
■directed to a mi
involving fundamental business concepts). This can be
seen, not only in the preamble of claim 18, but also in
the recited steps including: “allowing cardholder to
choose a new [credit card] security code,” “facilitating
recordation of chosen card security code,” “verify
subsequent

transaction

authorization

requests,”

“denying transactions when card security code . . .
does not match card security code on record,”
“[c]ardholder changing card security code any time . .
. necessary,” “selecting a new security code value,”
“ensuring that selected new security code value is
different from [prior codes],” “recording the new card
security code value,” and “remembering and providing
the new card security code when prompted during
subsequent credit card authorizations.”
Practical Application: Step One of the Mayo/Alice
Framework; Step 2A, Prong 2 of the 2019 Revised
Guidance
Having concluded that claim 18 recites a judicial
exception, i.e., an abstract idea, we next consider
under Prong 2, whether the claim recites additional

25a

■f

elements, considered individually and in combination,
that integrate the judicial exception into a practical
application. See Revised Guidance, 84 Fed. Reg. at 5455.
Here, the additional elements recited in claim 18,
beyond the abstract idea, include: “providing an
internet

connected

card

account

management

facility.” Though the Specification does not describe
“an internet connected card account management
facility,” it could be understood to be a financial
institution’s computer system. We are not persuaded
this limitation, considered individually or as an
ordered combination, integrates the abstract idea into
a practical application. For example, we find no
indication that providing an internet connected card
account

management

facility,

reflects

an

improvement to the functionality of a computer or an
improvement to technology. At best, the limitation
generally links the use of the abstract idea to a
particular technological environment involving a
financial institution.
Appellant argues that other patents have issued
in

the

area

of

card

verification

26a

codes

and

4

authorization systems, implying that this area of
technology is inherently a practical application. See
Appeal Br. 4. However, our analysis is limited to the
claims that are currently before us. Appellant does not
provide analysis of the claim language in this section
of argument. Id. Thus, we are not informed of error in
the Examiner’s rejection.
In view of the above, we determine that under
Prong 2, the additional elements do not integrate the
recited abstract idea into a practical application.
Inventive Concept: Step Two of the Mayo/Alice
Framework (Step 2B of the 2019 Revised Guidance)
Under this step, the Examiner determined that
“the additional elements or combination of elements
in the claims (internet, web application, mobile
application) do not add significantly more so as to
transform the abstract idea into patent-eligible
subject matter.” Final Act. 3. Further, the Examiner
found that “the elements other than the abstract idea
. .. amount to no more than instructions to implement
the abstract idea on a computer [and] . . . performs
generic computer functions that are well understood,
routine and conventional activities previously known

27a

X

to the industry.” Id. at 3-4.
We agree. As discussed above, almost all of the
claimed steps recite the abstract idea of a method of
organizing human activity in the form of fundamental
economic practices. “[P]roviding an internet connected
card account management facility” or otherwise
storing the data, etc., does no more than implement
the abstract idea on a computer.
Appellant argues that there are a number of
benefits to the invention, especially in preventing
credit card fraud

and that the benefits are

“significantly more” than that offered currently.
Appeal Br. 3-4.
However, Appellant’s argument simply describes
the benefits of the abstract idea, rather than
identifying that there is something claimed beyond
the abstract idea. We agree that Appellant has
expressed noble intentions and there might be some
public benefit from Appellant’s invention. However,
we are constrained to determine whether the
invention, as defined by the claim language is eligible
or ineligible based on the Supreme Court’s exceptions
to eligible subject matter.

28a

4

For all of the above reasons, we are not persuaded
ot error m the Examiner’s rejeelionmfxlaimH-8-under35 U.S.C. § 101. Therefore, we sustain the Examiner’s
rejection of claim 18, and claims 19-22, which fall
with claim 18.
35 U.S.C. §103- Obviousness
The Examiner finds that Adams’ “method of
enabling a card holder to select a new changeable card
security code (i.e. PIN number)” teaches most of the
features of the claims. Final Act. 5. The Examiner
finds that Adams does not teach “the changing of a
CW2/ CSC/ CVD/ CID/ CVC2.” /cZ.However, the
Examiner determines that “it would have been
obvious ... to change a security code such as a CW2
number as this is merely a predictable variation of
changing a PIN number as taught by Adams
producing expected and predictable results.” Id. at 6.
Appellant argues that “CW2 on a card has been
fixed from its inception. Making is changeable is an
important aspect of my patent application.” Appeal
Br. 5. The Examiner finds that “persons of ordinary
skill in the art have recognized a need to change the
values of the CW2 on a card for security purposes,”

29a

*.*
%

after citing several patents that are not formally
applied in the obviousness rejection. Ans. 10.
However, the Examiner has not identified where
any of these patents teaches a “change of card security
code” where the card security code is “printed on the
card” as required by claim 18. In fact, each of these
patents, though related, appears to be primarily
directed to electronic credit cards or dynamic security
codes. See U.S. Pat. 8,567,670 B2, iss. Oct. 29, 2013
(related to a one time use CVC for an electronic credit
card); U.S. Pat. 8,086,493 Bl, iss. Dec. 9, 2011 (related
to electronic token with dynamic CID); U.S. Pat.
8,930,273 B2, iss. Jan. 6, 2015 (related to dynamic
card value for mobile payments). For this reason, we
do not sustain the Examiner’s rejection of the claims
as obvious.
DECISION SUMMARY
In summary:
Claims
Rejected

35

U.S.C. §

Reference(s)/

Affirmed Reversed

Basis

18

112(b)

Indefiniteness 18

18-22

101

Eligibility

18-22

103

Adams

30a

18-22
18-22

Appellant informs us that he did not intend to appeal
the rejection of claim 18 under 35 U.S.C. § 112(b)
Req. Reh’g 2. Appellant also seeks rehearing as to
the portion of our Decision affirming the rejection of
claims 18-22 under 35 U.S.C. § 101 as being directed
to ineligible subject matter. Id. at 2—4.
DISCUSSION
A request for rehearing is limited to matters
overlooked or misapprehended by the Panel in
rendering the original decision. See 37 C.F.R. §
41.52; see also Ex parte Quist, 95 USPQ2d 1140,
1141 (BPAI 2010) (precedential) (quoting Manual of
Patent Examining Procedure (MPEP) § 1214.03). It
may not rehash arguments originally made in the
Brief, neither is it an opportunity to merely express
disagreement with a decision. It may not raise new
arguments or present new evidence except as
permitted by paragraphs (a)(2) through (a)(4). See 37
C.F.R. § 41.52. The proper course for an Appellant
dissatisfied with a Board decision is to seek judicial
review, not to file a request for rehearing to reargue
issues that have already been decided. See 35 U.S.C.
§§ 141, 145.

33a

*

35 U.S.C. § 112 - Indefinite
Appellant informs us: “I had not appealed 112
rejection, with a plan to work with the examiner to
make corrective amendments after [the] appeal
decision. I plan to do so if 101 rejection is reversed in
rehearing.” Id. at 2.
Independent of the outcome of the appeal and this
request for rehearing, Appellant may still “work with
the examiner to make corrective amendments after
[the] appeal decision.” Id. The prior decision
addressed all rejections only as a matter of
completeness. Whether we affirmed the rejection, or
did not address the rejection, it would not have
changed the status of the rejection.
35 U.S.C. § 101 - Patent Eligibility - Claim 18
We previously determined that “Appellant’s
claims are directed to patent-ineligible subject
matter without significantly more.” Decision, 5.2 In
particular, we determined that “the claimed ‘method
for countering credit card fraud’ is directed to the
abstract idea of a method of organizing human
activity in the form of fundamental economic
practices.” Id.
34a

. 4'

Under Step 2A, Prong 2 of the 2019 Revised
"Guidance,3 we also determined that “the additional
[claimed] elements do not integrate the recited
abstract idea into a practical application.” Id. at 7.
However, Appellant requests that we consider
whether the limitations of claims 19 and 20 would
change that determination. Req. Reh’g 2—3. We
previously determined that:
Here, the additional elements recited in
claim 18, beyond the abstract idea, include:
“providing an internet connected card account
Though
the
facility.”
management
Specification does not describe “an internet
connected card account management facility,”
it could be understood to be a financial
institution’s computer system. We are not
persuaded
this
limitation,
considered
individually or as an ordered combination,
integrates the abstract idea into a practical
application. For example, we find no
indication that providing an internet

2 For a summary of the law on patent eligibility, as
well as for our analysis of the claims, we refer the
reader to our prior Decision. Decision, 3—8.
3 See USPTO, 2019 Revised Patent Subject Matter
Eligibility Guidance, 84 Fed. Reg. 54—55 (January 7,
2019) (“Revised Guidance”).
35a

4.%

connected card account management facility,
reflects an improvement to the functionality of
a computer or an improvement to technology.
At best, the limitation generally links the use of
the abstract idea to a particular technological
environment involving a financial institution.
Decision 6.
Claims 19 and 20 both further limit the “the
internet connected card account management
facility.” Claim 19 requires that “the internet
connected card account management facility is a
feature of an online card account management
system comprising of: a web application; and the
cardholder accessing the web application via secure a
[sic] session using a browser.” Claim 20 is similar,
being directed to an “app” rather than a “web
application.” Both of these claims show that our prior
findings and determinations are correct. For
example, these claims show that we were correct in
stating ‘“an internet connected card account
management facility,’ 0 could be understood to be a
financial institution’s computer system.” An “app” or
“web application” could both be part of or at least
would both interact with a financial institution’s
36a

•4

computer system. We also previously found “no
indication LliaL pi,uviding"an'inteme1rco:nnected_carrd—
account management facility, reflects an
improvement to the functionality of a computer or an
improvement to technology.” Decision 6. The
limitations of claims 19 and 20 do not change these
findings.
Under Step 2B of the Revised Guidance4,
Appellant argues that the “inventive concept”
described in the Reply Brief should be considered.
Req. Reh’g 3. We previously addressed the benefits of
the invention outlined by Appellant in the Appeal
Brief, however we did not directly address the
alleged “improvements” and “novel benefit” listed in
the Reply Brief. Decision 7-8. The “improvements”
and “novel benefit” asserted by Appellant is that the
claims propose 1) “that card security code CW2 be
changeable after issue, making it a cardholder secret
separate from the card;” 2) “an additional feature
that allows CW2 for a card to be updated by the

4 Revised Guidance, 84 Fed. Reg. at 50.

37a

cardholder;” and 3) “a solution for credit card fraud
risk mitigation from compromised data.” Reply Br. 3
(emphasis omitted).
Consistent with our previous finding, “Appellant’s
argument simply describes the benefits of the
abstract idea, rather than identifying that there is
something claimed beyond the abstract idea.”
Decision 7-8. We again “agree that Appellant has
expressed noble intentions and there might be some
public benefit from Appellant’s invention. However,
we are constrained to determine whether the
invention, as defined by the claim language is
eligible or ineligible based on the Supreme Court’s
exceptions to eligible subject matter.” Id. at 8.
For the above reasons, we are not informed of
reversible error in the Examiner’s rejection or our
prior Decision.
CONCLUSION
For these reasons, we are not informed of
reversible error in the Examiner’s rejection or our
prior Decision. Thus, we deny Appellant’s Request.

38a

4 '

f

DECISION SUMMARY
In summary:

35

Claims
Rejected

U.S.C. §

Reference(s)/

Affirmed Reversed

Basis

18

112(b)

Indefiniteness 18

18-22

101

Eligibility

18-22

103

Adams

18-22
18-22
18-22

Overall
Outcome5

No time period for taking any subsequent action
in connection with this appeal may be extended
under 37 C.F.R. § 1.136(a). See 37 C.F.R. §
1.136(a)(l)(iv) (2017).
DENIED

5 37 C.F.R. § 41.50(a)(1) states: “The affirmance of
the rejection of a claim on any of the grounds
specified constitutes a general affirmance of the
decision of the examiner on that claim.”

39a

